                               UNITED STATES DEPARTMENT OF EDUCATION

                                               OFFICE OF INSPECTOR GENERAL



                                                           MAR 3 1 2003
                                                                                                 Control Number
                                                                                                 ED-OIGIA02-C0019

 Honorable Charles W. Turnbull
 Governor of the Virgin Islands
 No. 21 Kongens Gade
 Charlotte Amalie
 S1. Thomas, Virgin Islands 00802

 Dear Governor Turnbull:

 This is our Final Audit Report entitled l1w Virgin Islands Departrnent of Education-St. Croix
 School District's Control of Equipment Inventory. The objective of our audit was to determine
 whether the Virgin Islands Department of Education (VIDE-St. Croix) was appropriately
 controlling the equipment purchased with U.S. Department of Education (ED) funds. We found
 VIDE-St. Croix did not maintain adequate inventory and management controls over equipment
 purchased with ED funds and could not account for $1,017,416 in equipment.

                                                      BACKGROUND

  The Virgin Islands Department of Education (VIDE) has had serious and recurring deficiencies
  in its administration of federally funded programs. As a result, ED's Office of Special Education
. and Rehabilitative Services (OSERS) designated VIDE a "high-risk" grantee and imposed
  special conditions on its fiscal year 1998 Special Education grant award. The special conditions
  required VIDE to provide ED with monthly reports on its efforts to come into compliance with
  Part B of its Individuals with Disabilities Education Act (IDEA) grant. When VIDE did not
  demonstrate significant progress, OSERS proposed to VIDE a voluntary compliance agreement.
  Signed on December 12, 1999, the compliance agreement was a means of ensuring a continued
  flow of Part B of IDEA funds while VIDE implemented a structured plan to come into
  compliance with the statute.

 On September 23,2002, ED entered into a new compliance agreement with the Virgin Islands
 (VI). The compliance agreement addresses four areas of crosscutting issues: (1) Program
 Planning, Design and Evaluation; (2) Financial Management; (3) Human Capital; and (4)
 Property Management and Procurement. Property management has been a concern because
 items purchased were not delivered to classrooms in a timely manner, if at all. Property cannot
 be effectively tracked and may remain in warehouses, be delivered to incorrect locations, or be
 stolen rather than benefiting students in classrooms.
                                   400 MARYLAND AVE., S.W. WASHINGTON, D.C. 20202-1510
                  Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation
                             400 MARYLAND AVE., S.w. WASHINGTON, D.C. 20202-1510
            Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation
Final Report: ED-OIG/A02-C0019_________________________________________________

The new compliance agreement establishes performance measures that VIDE must comply with
to address the serious property management problems previously identified by ED. These
include:

   a target date of June 30, 2003 to provide ED with an inventory policy and implementation
    plan of the inventory management system, as well as the completion of reasonable steps to
    secure all property, in warehouses, schools, and other locations from larcenous behavior or
    inappropriate or unauthorized use,
   a target date of December 30, 2004 to fully implement an inventory policy and system that
    includes all property purchased with Federal program funds be tagged, entered into a
    tracking system, and delivered to the appropriate location within three calendar days of
    receipt,
   the return of all unaccounted-for items to either their intended locations, or their full value
    reimbursed to ED by March 31, 2005,
   the inventory management system to reflect minimal losses due to theft by the end of the
    second year of the Compliance Agreement, and
   audits to show minimal unaccounted for equipment by the end of the Compliance
    Agreement.

The VI was in the process of implementing an inventory program named WinAssets. The
program is designed to track personal property owned by the VI Government, identify and/or
determine which items are accounted for, and simplify compliance with the inventory and
reporting requirements of the VI Department of Property and Procurement. Additionally, the
program captures information needed for reporting on assets acquired with Federal funds.

The VI Single Audits have continually reported both monetary and procedural property
management findings. Monetary findings include lack of justification for non-competitive bid
purchases, improper administration of competitive bids, and failure to obtain price quotes for
procurements under $5,000. Procedural findings include lack of information and/or
documentation for equipment disposition, property management, and physical inventories.

                                            AUDIT RESULTS

VIDE-St. Croix could not account for $1,017,416 in equipment.1 This included $725,928 of
equipment missing from 16 locations we tested, and $291,488 for 246 items unaccounted for that
were purchased, but not listed on inventory records. In addition, at 15 of the 16 locations visited,
we found other equipment that was not included in the inventory records. This occurred because
VIDE-St. Croix did not maintain adequate inventory and management controls over equipment
purchased with ED funds. Specifically,

    •   VIDE-St. Croix did not maintain adequate and consistent inventory records,
    •   VIDE-St. Croix’s personnel lacked property management training, and
    •   VIDE-St. Croix did not perform physical inventories and reconcile results with property

1
 At least 77 percent of the equipment was acquired with funds authorized by the Elementary and Secondary
Education Act of 1965, as amended, and at least 11 percent with funds authorized by the Individuals with
Disabilities Education Act of 1997. The remaining 12 percent could not be determined.

                                                       2
Final Report: ED-OIG/A02-C0019_________________________________________________

           records.

According to 34 C.F.R. § 80.32 (d) (1)2

           . . . Property records must be maintained that include a description of the property, a
           serial number or other identification number, the source of property, . . . the location,
           use and condition of the property, and any ultimate disposition data . . . (2) A
           physical inventory of the property must be taken and the results reconciled with the
           property records at least once every two years. (3) A control system must be
           developed to ensure adequate safeguards to prevent loss, damage, or theft of the
           property. Any loss, damage, or theft shall be investigated. (4) Adequate
           maintenance procedures must be developed to keep the property in good condition.

The VI Government’s Property Manual, Chapter 3, § (1) (A) requires the Property Management
Officer of each Department or Agency to conduct a complete physical inventory of all
capitalized equipment at least once biennially for effective property accounting, utilization, and
control; and § (2) requires that the results of the prescribed physical inventory of property shall
be reconciled for inventory control purposes. Chapter 6, § (5) states that adequate storage
facilities shall be provided to ensure the safeguarding of all Government Property.

VIDE–St. Croix had an inventory that was created and maintained by the Media Library
Services Coordinator at the St. Croix Curriculum Center. Although the inventory spanned a
period of 10 years, the inventory was not complete or totally accurate. Costs for individual items
were not always reflected in the inventory records. Items purchased with Federal funds were not
specifically tagged to identify the funding source. The Media Library Services Coordinator
stated that VIDE-St. Croix’s personnel lacked training in property management. He also stated
that, because of a lack of personnel, they had neither gone to the schools to conduct physical
inventories, nor reconciled the inventory with VIDE’s accounting records.

Missing Equipment

The VIDE-St. Croix’s original inventory records had a total of 4,719 items purchased between
January 1, 1997 and October 31, 2001 with total recorded costs of $4,245,167 at 59 locations.
The total recorded costs were understated because many pieces of equipment did not have
associated costs. To perform our physical inventory, we selected 16 locations with purchases
over $100,000. While performing the inventory at the first three locations, we were unable to
locate more than one-half of the items listed because the inventory data had not been recorded
consistently. For example, the inventory for the Curriculum Center had been recorded as CC
208, 208 CC, and 208. As a result, we requested updated inventory lists of the 16 selected
locations with all the data recorded consistently. After comparing the items listed in the updated
records with the missing inventory of the three locations already visited, we noticed fewer
discrepancies. As a result, we relied on the new records to perform the physical inventory at the
remaining locations.
The updated inventory records of the 16 selected locations had 2,985 items (excluding non-
Automated Data Processing (ADP) items valued under $400) that had recorded costs of
$2,991,319. Of the 2,985 items listed, we were unable to find 641 items (21 percent).
2
    Unless otherwise specified, all regulatory citations are to the July 1, 2000 volume.
                                                             3
Final Report: ED-OIG/A02-C0019_________________________________________________

The missing 641 items amounted to $725,928 or 24 percent of the total recorded costs.

                           Quantity of     Quantity         Recorded       Percentage of
All 16 Locations             Items        Percentage          Cost         Recorded Cost

Items Not Found                641           21%                $725,928         24%

Items Found                   2,344          79%              $2,265,391         76%

Total Items                   2,985          100%             $2,991,319        100%

The $725,928 value of items not found was understated because 167 of the 641 missing pieces of
equipment did not include associated costs. According to the Media Library Services
Coordinator, VIDE–St. Croix did not always reflect costs for individual items because it was not
required. (See Attachment A for inventory items found and not found by location).

Unaccounted For Equipment

After comparing requisitions of equipment purchases with the original inventory created by the
Media Library Services Coordinator, we found 16 requisitions that VIDE recorded as received
but did not include in the inventory records. These requisitions included 246 items that cost
$291,488. Since the 246 items were not linked to specific locations, we classified them as
unaccounted for.

Other Equipment Found, But Not Recorded

At 15 of the 16 locations visited, we found 363 items that were not included in the inventory
records. Because we could not associate the 363 items with specific requisitions, we were
unable to determine whether these items were part of the 246 items referred to above. Of the 363
additional items found, a total of 59 (16 percent) were not in use and 15 (4 percent) were not at
their original location. This unaccountability can be attributed to VIDE–St. Croix’s
inconsistencies in record keeping.

Equipment Condition, Theft Reporting, and Record Keeping

The equipment at 15 of the locations visited was in good condition. The exception was St. Croix
Central High School, where 33 percent of the equipment was either damaged or unused, and
stored in an unsuitable area. The equipment had been stored in a makeshift area in order to
prevent theft or misappropriation until improvements were made to the infrastructure. (See
Attachment B for pictures of the damaged and unused equipment).

Schools were required to notify the Media Library Services Coordinator at the Curriculum
Center when thefts occurred. School officials from five of the locations visited (St. Croix
Central High School, Arthur Richards Junior High School, Alfredo Andrews Elementary School,
Ricardo Richards Elementary School, and Charles Emanuel Elementary School) indicated that
thefts had occurred at the schools’ premises, but they did not provide us official reports of the
equipment stolen and were not able to identify the serial or property number of the equipment

                                                4

Final Report: ED-OIG/A02-C0019_________________________________________________

stolen. Moreover, they did not notify the Media Library Services Coordinator of the thefts.

Inventory records were also inaccurate because we found that schools did not maintain a log of
computer equipment delivered to the Curriculum Center or a local merchant for repairs, or
loaned to other schools and teachers. In addition, VIDE-St. Croix generally charged two
different accounting codes for equipment purchases, accounting codes 95265 — Contracts to
Independent Agencies ─ and 25625 — Machinery and Equipment. VIDE-St. Croix should be
consistent when creating requisitions and inputting accounting codes so that management can
more easily track equipment purchases.

Recommendations

We recommend that the Assistant Secretaries for Elementary and Secondary Education and
Special Education and Rehabilitative Services require VIDE-St. Croix to:

1. 	 Account for all equipment or return to ED $1,017,416 in missing or unaccounted for
     equipment;

2. 	 Implement controls and procedures to ensure that its property management system is
     maintained with reliable and consistent information that complies with Federal and VI
     property management requirements and issue property tags that indicate the funding source;

3. 	 Provide property management training to its personnel;

4. 	 Perform physical inventories at all schools at least once every two years, requiring the Media
     Library Services Coordinator to reconcile the inventory results for each school with property
     records and original requisitions, and properly identify and maintain a list of all property
     purchased with Federal funds;

5. 	 Maintain adequate storage facilities to keep property in good condition;

6. 	 Maintain adequate records of stolen equipment, ensure that losses, damages, or thefts are
     investigated, and establish control logs of property removed from school premises; and

7. 	 Account for equipment purchases consistently.




                                                 5

Final Report: ED-OIG/A02-C0019_________________________________________________

VIDE’s response

The report incorporates as Attachment C the comments VIDE provided in response to the draft
audit report.

VIDE did not concur with Recommendation No. 1 because it ascertained that at least $159,776
worth of the equipment unaccounted for was found by school authorities and was available for
inspection. VIDE also questioned the basis upon which we made the determination that funds
should be returned for 246 items totaling $291,488 if we stated in our finding that we were
unable to determine whether these items were part of 363 items found in other locations, or not
in use. VIDE also stated that one site – the Vocational Complex – had several items totaling
$82,421 that were listed as missing, even though the items were not purchased with Federal
funds. Finally, VIDE claimed that if repayment is inevitable for some unaccounted for items, the
depreciation of the equipment should be taken into account, since the value of an item that is
missing or unaccounted for depreciates over time. VIDE stated that computers purchased and
installed in 1996 do not have the same value today.

VIDE concurred with the remaining six recommendations and stated that it will develop
procedures to ensure that data input is consistent; provide training to those employees that
handle the Department’s property; complete a physical inventory at least once every two years to
comply with Federal requirements; explore other sites for storage; require that each school
reports stolen equipment; set up control logs at various job sites to monitor equipment that is
loaned; explore a library check-out system for laptop computers at all schools; and implement a
new internal accounting system.

OIG’s reply

We considered VIDE’s response to Recommendation No. 1 but did not change our findings or
recommendations because VIDE failed to provide documentary evidence supporting its
contentions. Since VIDE failed to provide a detailed listing of the $159,776 of equipment found,
we cannot determine its validity. Similarly, without VIDE providing evidence of the location of
equipment associated with the 16 requisitions, we still consider the equipment as unaccounted
for. Finally, VIDE did not identify the $82,421 worth of equipment purchased with non-Federal
funds located at the Vocational Complex. VIDE should provide the evidence to ED officials
when it responds to the resolution official noted on page nine.

We also disagree with VIDE’s claim that depreciation should be taken into account for
equipment that was purchased and installed in 1996. First, our inventory only included
equipment purchased after 1997. Most equipment was purchased during 1999, 2000 and 2001.
Second, VIDE had no documentation to support disposition of the missing or unaccounted for
equipment.

The corrective actions VIDE outlines in its response to the remaining six recommendations are
responsive to the inventory controls weaknesses identified in this report.




                                               6

Final Report: ED-OIG/A02-C0019_________________________________________________

                      OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether VIDE–St. Croix was appropriately
controlling the equipment purchased with ED funds. We performed physical inventories based
on purchases made between January 1, 1997 and October 31, 2001, for 2,985 items that had
recorded costs of $2,991,319. We performed fieldwork at VIDE-St. Croix, St. Thomas, and at
the VI Department of Finance during the period May 15, 2001 to August 23, 2002, the date of
our exit conference with Virgin Islands government officials. To perform the physical
inventories, we made on-site visits, from December 3, 2001 through December 14, 2001, to the
following 16 selected locations:

   1. St. Croix Central High School
   2. Curriculum Center
   3. Vocational Complex
   4. John H. Woodson Jr. High School
   5. Arthur A. Richards Jr. High School
   6. Academic Complex
   7. Pearl B. Larsen Elementary School
   8. Elena Christian Jr. High School
   9. Freewill Baptist School
   10. Alfredo Andrews Elementary School
   11. Juanita Gardine Elementary School
   12. Good Hope School
   13. Ricardo Richards Elementary School
   14. Charles Emanuel Elementary School
   15. Alexander Henderson Elementary School
   16. Country Day School

To accomplish our audit objective, we reviewed VIDE’s 1998, 1999, and 2000 Single Audit
reports and working papers for findings related to equipment control, reviewed equipment
purchase requisitions, interviewed VIDE-St. Croix officials, reviewed updated inventory lists
obtained from VIDE-St. Croix’s Media Library Services Coordinator, and performed physical
inventories at 16 out of 59 locations. We selected all 16 locations having purchased equipment
valued at over $100,000. Our physical inventory excluded non-ADP items valued under $400.

To assist us in achieving our audit objective, we relied in part on computer-processed data
maintained by the VI Department of Finance on its Financial Management System (FMS). We
tested the accuracy, authenticity, and completeness of the FMS data by comparing source
documents to FMS data. Based upon these tests, we found the supporting documentation and
FMS data to be consistent and reliable for the purposes intended. Our comparison also revealed
that the inventory records provided by the St. Croix Media Library Services Coordinator were
incomplete and inaccurate.

Our audit was performed in accordance with generally accepted government auditing standards
appropriate to the scope of the review described above.




                                               7
Final Report: ED-OIG/A02-C0019_________________________________________________

                     STATEMENT ON MANAGEMENT CONTROLS 


We did not assess the adequacy of VIDE-St. Croix’s management control structure applicable to
equipment inventory. Instead, we gained an understanding of the Media Library Services
Coordinator’s controls over equipment and relied on substantive testing of school inventories.
We also reviewed VIDE’s Single Audit reports and working papers for findings related to
equipment control, reviewed equipment purchase requisitions, interviewed VIDE-St. Croix
officials, reviewed updated inventory lists obtained from VIDE-St. Croix’s Media Library
Services Coordinator, and performed physical inventories at 16 out of 59 locations.

Our testing identified major weaknesses in VIDE-St. Croix’s inventory controls, including that
VIDE-St. Croix did not maintain adequate inventory and management controls over equipment
purchased with ED funds and could not account for a significant amount of equipment.
These weaknesses and their effects are fully discussed in the AUDIT RESULTS section of this
report.




                                               8

      Final Report:
Final Report:       ED-OIG/A02-C0019
              ED-OIG/A02-C0019 _________________________________________________


                                   ADMINISTRA TIVE MATTERS

    If you have any additional comments or information that you believe may have a bearing on the
    resolution of this audit, you should send them directly to the following Education Department
    official, who will consider them before taking final Departmental action on the audit:

                          Eugene Hickok
                          Acting Assistant Secretary
                          Office of Elementary and Secondary Education
                          U.S. Department of Education
                          Federal Building No.6
                          400 Maryland Ave, SW, Room 3W315
                          Washington D.C. 20202

    Office of Management and Budget Circular A-50 directs Federal agencies to expedite the
    resolution of audits by initiating timely action on the findings and recommendations contained
    therein. Therefore, receipt of your comments within 30 days would be greatly appreciated.

    Statements that managerial practices need improvements, as well as other conclusions and
    recommendations in this report represent the opinions of the Office of Inspector General.
    Determinations of corrective action to be taken will be made by the appropriate Department of
    Educations officials.

    In accordance with Freedom of Information Act (5 U.S.C §552), reports issued by the Office of
    Inspector General are available, if requested, to members of the press and general public to the
    extent information contained therein is not subject to exemptions in the Act.


                                                 Sincerely,




                                                 Helen Lew
                                                 Acting Assistant Inspector General
                                                 for Audit




                                            9

 Final Report: ED-OIG/A02-C0019



                                                                                        Attachment A 


                                                                         Items Found and Not Found By Location 


                                                  ITEMS NOT FOUND                          ITEMS FOUND
                                                                                                                                                         % OF
                                                                           %                                                                          RECORDED    % OF
                                                                         ITEMS                                    %                  TOTAL               COST  RECORDED
                                                      RECORDED            NOT           RECORDED                ITEMS    TOTAL     RECORDED              NOT      COST
             LOCATION                     QUANTITY      COST             FOUND QUANTITY   COST                  FOUND   QUANTITY      COST              FOUND    FOUND

1    St. Croix Central High School           58           $     71,993    13       388         $      386,169    87       446        $      458,162     16         84

2    Curriculum Center                      241                293,354    41       347                           59       588                           44         56

3    Vocational Complex                     137                150,527    33       274             206,139
                                                                                             379,557             67       411                           42         58
                                                                                                                                   672,911
4    John H. Woodson Jr. High School         21                 21,916    21       81                  94,042    79       102      356,666              19         81

5    Arthur A. Richards Jr. High School      23                 21,618    16       123                120,767    84       146      115,958              15         85

6    Academic Complex                        35                 24,859    20       142                119,100    80       177      142,385143,959       17         83

7    Pearl B. Larsen Elementary School       5                   7,497     4       122                122,456    96       127               129,953      6         94

8    Elena Christian Jr. High School         28                 37,408    23       96                            77       124                           28         72

9    Freewill Baptist School                 14                 11,244    11       110                113,097    89       124      134,543               9         91
                                                                                             97,135
10   Alfredo Andrews Elementary School       12                 10,174     9       125                126,393    91       137      124,341               7         93

11   Juanita Gardine Elementary School       28                           25       86                  72,010    75       114      136,567              31         69

12 Good Hope School                          7         32,864              6       103                 87,868    94       110      104,874               8         92

13   Ricardo Richards Elementary School      9                             9       87                            91        96                            7         93
                                                       7,215                                                                       95,083
14   Charles Emanuel Elementary School       3                             3       94                            97        97                            4         96
                                                       6,507                                 86,569                                93,076
15   Alexander Henderson Elementary                                                          101,374                               106,146
     School                                  10        4,772     3,791    12       73                  71,861    88        83                75,652      5         95

16   Country Day School                      10                           10       93                            90       103               101,043     20         80

TOTALS                                      641           $ 725,928
                                                       20,189             21      2,344        $ 2,265,391
                                                                                              80,854             79       2,985      $ 2,991,319        24         76
Final Report: ED-OIG/A02-C0019


                                          Attachment B

                    Damaged and Unused Equipment Stored in an Unsuitable Area
                                 St. Croix Central High School
Final Report: ED-OIG/A02-C0019

                                                    Attachment C

   03121/2003 FRI 21:43 FAX                                                                          ~ 001/001


                               Govermnent of the United States Virgin Islands
                                    Veyartment Of Xaucation
                                            Office of the Commissioner
                                              #44-46 Koogeos Gade
       Tel: (340) 774-0100             St. Thomas, U.S. Virgin Islands 00802          Fax: (340) 779-7153


             March 17,2003



             Daniel P. Schultz
             Regional Inspector General for Audit
             U.S. Department of Education
             Office of Inspector General
             75 Park Place, lih Floor
             New York. NY 10007

             Dear Regional Inspector General Schultz:

             Transmitted herewith is the Departtnent of Education's Response to Audit No. ED­
             OIG/A02-C0019 cntitled 'The Virgin l~'lands Department a/Education-St. Croix School
             District's Control of Equipment Inventory,"

             Please contact Mr. Dwight Simmonds, Director, Federal Grants & Audit at 340-774-0100
             extension 3155 should you require any additional infbnnation,

             Sincerely,

               ~~~­
          no~~ M~ehael, Ph.;'           .
       rommiSSioner
Final Report: ED-OIG/A02-C0019

                                                  Attachment C




           AUDITORS FINDINGS

           SITUATION:

          VIDE- St. Croix could not account for $1,017,416 in equipment. This included $725,928
          of equipment missing from 16 locations visited, and $291,488 for 246 unaccounted items
          that were purchased, but not listed on the inventory records.

          CAUSE:

              •   VIDE    St. Croix did not maintain adequate and consistent inventory records
              •   VIDE    St. Croix's personnel lacked property management training, and
              •   VIDE    St. Croix did not perform physical inventories and reconcile results with
                          property records.


              RECOMMENDATIONS:

                     1. Account for all equipment or return to ED $1,017,416 in missing or
                        unaccounted for equipment;
                     2. Implement Controls and procedures to ensure that its property
                        management system is maintained with reliable and consistent information
                        that complies with Federal and VI property management requirements and
                        issue property tags that indicate the funding sources;
                     3. Provide property management training to its personnel;
                     4. Perform inventories at all schools at least once every two years, requiring
                        the Media Library Services Coordinator to reconcile the inventory results
                        for each school with property records and original requisition, and
                        properly identify and maintain a list of all property purchased with Federal
                        funds;
                     5. Maintain adequate storage facilities to keep property in good condition;
                     6. Maintain adequate records of stolen equipment, ensure that losses,
                        damages, or thefts are investigated, and establish control logs of property
                        removed from school premises and
                     7. Account for equipment purchases consistently.


          DEPARTMENT'S RESPONSE

          TO SITUATION:

          VIDE does not concur that $1,017,416 in equipment could not be accounted for as stated
          in the audit results. Based on a preliminary review, VIDE was able to ascertain that at
          least $159,776.00 worth of the equipment unaccounted for was found by school
          authorities and are now available for inspection.
Final Report: ED-OIG/A02-C0019

                                                    Attachment C




           Secondly, the Department questions the basis upon which the U.S. Department of
           Education has made the detelmination that funds should be returned for the 246 items
           totaling $291,488. USDOE clearly states in its findings that they "were unable to
           determine whether these items were part of" the 363 items found in other locations, or
           not in use. Finally, if repayment is inevitable for some unaccounted for items
           depreciation of the equipment should be taken into account. Certainly, computers
           purchased and installed in 1996 do not have the same value today.

           TO RECOMMENDATIONS:

           Recommendation # 1:

              VIDE does not concur. The value of an item that is missing or unaccounted for
              depreciates over time, especially computer equipment. If the Department is
              ultimately required to pay, it should be at the depreciated cost of the equipment.
              Also, one site -- the Vocational Education Complex -- had several items totaling
              $82,421listed as missing. However, these items were not purchased with federal
              funds. Further, VIDE questions how a determination could be made that VIDE had
              not accounted for or had mismanaged federal property when the supporting
              information, an account code, (the basis for identifying funding source) was not
              available? How did auditors arrive at their determination?

                  Persons Responsible: Terrence Joseph, Insular Superintendent STX
                                       Sonia Clendinen, Deputy Commissioner,
                                       Fiscal & Administrative Services

           Recommendation # 2:

              VIDE concurs that stronger controls are necessary to account for property purchased
              with either federal or local funds. The issue is currently being addressed as VIDE
              attempts to fully meet requirements under the Compliance Agreement. VIDE will
              develop procedures to ensure that data input is consistent and staff is trained to work
              in all phases of the purchasing, receiving and distribution of property inventory. The
              property tagging (color coded tags) has already been implemented in the St. Croix
              District and the St. Thomas District will implement a similar system within the next
              three months. (Please see Exhibit A.)

                  Person Responsible:    Cosmore Wheatley, Director Property & Procurement
                                         STT/STJ District

                  Due Date:              June 30, 2003




                                                                                                        2
Final Report: ED-OIG/A02-C0019

                                                   Attachment C



           Recommendation # 3:

              VIDE concurs that training is always necessary for its employees to effectively
              discharge their duties and responsibilities. Therefore training will be given to those
              employees that handle the Department's property. Although the USDA Graduate
              School is able to provide this type of training, VIDE is seeking at least two other
              qualified bidders who can perform this function to ensure the competitive bidding
              requirements have been meet.

                  Person Responsible: Sonia Clendinen, Deputy Commissioner,
                                      Fiscal & Administrative Services

                  Due Date:               June 30, 2003

           Recommendation # 4:

              VIDE concurs that a physical inventory is needed at least once every two years and
              will ensure that one is completed at least once every two years to comply with federal
              requirements. The results of the physical inventory will be compared with the
              inventory records and updated as required. VIDE expects to complete this year's
              inventory/reconciliation by June 30,2003.

                  Person Responsible:    Sonia Clendien, Deputy Commissioner,
                                         Fiscal & Administrative Services

                                         Julio Espinosa, Director Curriculum Center/ Media Library
                                         Services

                  Due Date:      June 30, 2003

           Recommendation # 5:

           VIDE concurs. VIDE will explore other sites for storage, on and off campus, in an effort
           to improve storage accommodations, specifically at the St. Croix Central High School.

                  Person Responsible: Terrence Joseph, Insular Superintendent STX

           Recommendation # 6:

           VIDE concurs that adequate records of stolen equipment should be maintained and that a
           police report should be filed for every break-in on VIDE premises. Also, since August
           2002, VIDE has required that this information be reported by each school as part of its
           annual data reporting deliverables. These procedures will be reported by each school
           and all other possible steps will be taken to curtail larcenous behavior. Control Logs will
           be set up at various job sites to monitor equipment out on loan. A library check-out
           system for laptop computers is being explored at all schools to streamline this process.



                                                                                                       3
Final Report: ED-OIG/A02-C0019

                                                  Attachment C




                Person Responsible: Sonia Clendinen, Deputy Commissioner,
                                    Fiscal & Administrative Services

                Due Date:               June 30, 2003


             Recommendation # 7:

             VIDE concurs that all posting into the database (Property Records) should be
             consistent. This will be reinforced through the training that will be conducted for all
             personnel handling the inputting of data. Further, some of these problems will be
             immediately rectified with the implementation of our new internal accounting system,
             namely the Comprehensive Information Management System (CIMS). Location
             Code, Category, and Classification Code are all pre-set in CIMS. Persons performing
             input functions will not be allowed to change the manner in which data are inputted
             into the system. When inventory items are received, they will be automatically
             entered into the fixed assets inventory. It is anticipated that CIMS will be operational
             by 06/01103. (Please see Exhibit B.)

                Person Responsible: Sonia Clendinen, Deputy Commissioner,
                                     Fiscal & Administrative Services

                Due Date:               June 30, 2003




                                                                                                    4
Final Report: ED-OIG/A02-C0019

                                      Attachment C




                                 EXHIBIT A



                A SAMPLE OF THE COLOR CODED TAG
               BEING IMPLEMENTED IN THE ST. CROIX
                            DISTRICT




                                 VIRGIN ISLANDS


                                   11111111111111111111111111111111111
                                             03821
                                 GOVERNMENT-FED




                                                                         5
Final Report: ED-OIG/A02-C0019

                                                 Attachment C

                                                                                          EXHIBIT B



                                        CIMS PROGRESS REPORT

                                                                                         02110103

                  The implementation of the Comprehensive Information Management for
            Schools (CIMS) is progressing on schedule. elMS is a financial and human
            resources software package that is designed for school districts. It is currently in
            use by over 1,000 school districts in the United States. Several states have
            adopted it for all of their school districts. The cities of Pittsburgh, PA and EI Paso,
            TX have recently adopted the software.

            Installation and Initial Setup

                    In May of 2002, the software was installed on the AS/400. The AS/400
            had already been upgraded with increased memory and hard drive storage to
            accommodate l'he CIMS software. Also, in April a elMS consultant spent two
            weeks with the Department of Education's fiscal and human resource managers
            explaining the software and helping the staff to make decisions on configuring
            the software to meet our needs. Areas covered included setting up the account
            string, selecting system parameters for the general ledger, purchasing, accounts
            payable, payroll, human resources, and the position inventory. Also covered was
            the application control module, which involved user setup, security, menu
            modification, file backup, and software revision installation. Some of the tables in
            the software where filled with data based on decisions that were made.

            Programs to Convert NOPA Data

                    As part of the consultants visit, a plan was developed to convert the
            Department's existing personnel and position control information (NOPA) into the
            elMS software. The file layouts and field names for the elMS software were
            identified. A program was developed to convert the NOPA data into the new
            codes for CIMS organized by elMS files and using CIMS filed names.
                    The government Office of Personnel notified the Department of Education
            that they were implementing new position codes. A program was written to
            convert existing position codes in our NOPA file to the new codes.

   ~.       Training

                    In July of 2002, a CIMS trainer spent two weeks in the Virgins Islands
            training users on the various modules of the elMS software:

                                 General Ledger
                                 Purchasing
                                 Employee Management
                                 Payroll
                                 Accounts Payable
                             REPORT DISTRIBUTION LIST
                            CONTROL NO. ED-OIG/A02-C0019

                                                              No. of
Auditee                                                       Copies

Honorable Charles W. Turnbull                                    1

Governor of the Virgin Islands 

No. 21 Kongens Gade 

Charlotte Amalie 

St. Thomas, Virgin Islands 00802 


ED Action Officials

Eugene Hickok                                                    1

Acting Assistant Secretary of 

Elementary and Secondary Education 


Robert H. Pasternack                                             1

Assistant Secretary for Special Education 

and Rehabilitative Services 


Other ED Officials/Staff (electronic copy)

Audit Liaison Officer, OESE                                      1

Audit Liaison Officer, OSERS                                     1

Office of General Counsel, Correspondence Control                1

OGC, Elementary, Secondary, Adult, and Vocational Education      1

Office of General Counsel, Correspondence Control                1

Deputy Secretary                                                 1

Chief of Staff                                                   1

Under Secretary                                                  1

Director, Communications                                         1

Chief Financial Officer                                          1

Acting AS, Legislative and Congressional Affairs                 1

AS, Intergovernmental and Interagency Affairs                    1

General Operations Team                                          1

Post Audit Group, OCFO                                           1

Headquarters and Regional Audit Managers                         13

